IN THE SUPREME COURT OF THE UNITED STATES
___________
No. A-_____
___________
CROWN ASSET MANAGEMENT LLC, APPLICANT
v.
MARY BARBATO
___________
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
___________
Pursuant to Rules 13.5 and 30.2 of this Court, counsel for
Crown Asset Management LLC respectfully requests a 60-day extension of time, to and including July 22, 2019, within which to file
a petition for writ of certiorari to review the judgment of the
United States Court of Appeals for the Third Circuit in this case.
The Third Circuit entered its judgment on February 22, 2019. App.,
infra, 1a-21a.

Unless extended, the time for filing a petition

for a writ of certiorari will expire on May 23, 2019.

The juris-

diction of this Court would be invoked under 28 U.S.C. 1254(1).
1.

This case presents a question of statutory interpreta-

tion under the Fair Debt Collection Practices Act (FDCPA).

Ap-

plicant is a purchaser of charged-off receivables -- i.e., accounts
on which a consumer has stopped paying the debt owed.

Applicant

does not itself engage in any debt-collection activity; instead,
it refers some of the acquired debts to third-party servicers,

2
which then take their own steps to collect the debt.

App., infra,

3a-4a.
Respondent obtained a consumer credit card, but did not pay
it off in full.

The credit-card company charged off the unpaid

balance, and applicant purchased the charged-off debt.

Applicant

subsequently referred the debt to a third party, Turning Point
Capital, Inc., for debt collection. App., infra, 4a. The contract
between applicant and Turning Point expressly stated that Turning
Point was an independent contractor, not an employee of applicant,
and that Turning Point agreed to comply with all applicable laws,
including the FDCPA, while performing its contractual obligations.
C.A. App. 104-106.

Turning Point sent respondent a letter and

left her two voicemail messages in an effort to collect the debt.
Applicant never communicated with respondent and did not supervise
Turning Point’s activities.
2.

App., infra, 4a-5a.

In the action against applicant, respondent asserted

that applicant could be held liable as a “debt collector” under
the FDCPA on the basis of Turning Point’s communications with her.
The FDCPA defines a “debt collector” as any person who falls into
one of three categories.

First, the FDCPA reaches any person who

is engaged in “any business the principal purpose of which is the
collection of any debts.”

15 U.S.C. 1692a(6).

Second, the FDCPA

reaches any person who “regularly collects or attempts to collect,
directly or indirectly, debts owed or due or asserted to be owed
or due another.”

Ibid.

And third, the FDCPA reaches “any creditor

who, in the process of collecting his own debts, uses any name

3
other than his own which would indicate that a third person is
collecting or attempting to collect such debts.”
Applicant
judgment.

and

respondent

filed

Ibid.

cross-motions

for

summary

Relying on then-existing Third Circuit precedent, re-

spondent argued that applicant was a “debt collector” because it
purchased debts when they were in default, and because its “principal purpose” was debt collection inasmuch as it referred those
debts to third parties for collection.

Applicant argued that,

regardless of the default status of the debt, it was not a “debt
collector” under the “principal purpose” definition because it did
not interact with respondent or other consumers, and because its
principal purpose was in fact debt acquisition and not debt collection.

App., infra, 5a-6a.

The district court agreed with respondent’s reading of the
FDCPA.

It concluded that applicant’s principal purpose was to

acquire accounts in default for the purpose of collection -- despite the fact that third parties, not applicant, in fact collected
the debt.
that basis.

It denied applicant’s motion for summary judgment on
The district court also denied respondent’s motion

for summary judgment, however, on the ground that applicant could
be held vicariously liable for Turning Point’s conduct only if
Turning Point was also a “debt collector,” something respondent
had failed to establish.

The district court allowed the parties

to file renewed motions for summary judgment to address that issue.
App., infra, 6a-7a.
This Court then issued its decision in Henson v. Santander
Consumer USA Inc., 137 S. Ct. 1718 (2017), in which it held that

4
a party that regularly purchased defaulted debt for its own account
and then itself attempted to collect that debt was not a “debt
collector” subject to the FDCPA.

In light of that decision, ap-

plicant filed a motion for reconsideration of the district court’s
ruling that it was a “debt collector.”

The district court denied

the motion on the ground that Henson applied only to the “regularly
collects” definition of “debt collector” and thus did not affect
the district court’s conclusion that applicant was a “debt collector” under the “principal purpose” definition.

App., infra,

7a-8a.
The district court nonetheless certified the case for interlocutory appeal on the ground that it presented “a controlling
question of law”:

namely “whether Henson requires a finding that

[applicant] is not a debt collector in this case when it was a
third-party buyer of the debt, and the debt was in default at the
time it purchased it.”
3.

App., infra, 8a (citation omitted).

The court of appeals affirmed.

App., infra, 1a-21a.

It

cited pre-Henson circuit precedent that had deemed buyers of defaulted debt to be debt collectors under both the “regularly collects” and “principal purpose” definitions, even if such entities
referred the debt to third parties for actual collection.
12a-14a.

Id. at

In the pre-Henson cases, the court had based that con-

clusion on the premise that under the FDCPA a purchaser of defaulted debt must be a debt collector, because it did not qualify
as a creditor.

See Pollice v. National Tax Funding, L.P., 225

F.3d 379, 403-404 (3d Cir. 2000).

But the Court rejected that

5
premise in Henson, explaining that “a defaulted debt purchaser”
could in fact “qualify as a creditor.”

137 S. Ct. at 1724.

The court of appeals acknowledged that Henson had abrogated
its precedent with respect to the “regularly collects” definition
of “debt collector.”

App., infra, 13a.

But the court reasoned

that the rationale of Henson had no bearing on the circuit precedent to the extent it was based on the “principal purpose” definition, rejecting applicant’s argument that Henson had undermined
“the very foundation” of that precedent.

Id. at 12a-13a.

Accord-

ingly, the court of appeals applied the pre-Henson circuit precedent to conclude that applicant was a “debt collector” under the
“principal purpose” definition.

Id. at 14a.

The court of appeals took the view that the plain text of the
“principal purpose” definition covers entities that have as their
most important goal “the collection of any debts,” which the court
construed to include not just “overt acts of collection,” but also
the broader category of “that which is collected” (i.e., acquired
debts), regardless of who does the collecting or to whom the debt
is owed.

App., infra, 15a.

In that way, the court of appeals

explained, the use of the noun “collection” in the “principal
purpose” definition “sweeps more broadly” than the use of the verb
“to collect” in the “regularly collects” definition:

the noun

“collection” naturally includes indirect collection, while the
verb “to collect” requires qualification to make clear that “indirect[]” debt collection is covered.

Id. at 16a-17a.

Based on

that reasoning, the court of appeals declined to give weight to
the fact that the “regularly collects” definition includes the

6
term “indirectly,” whereas the “principal purpose” definition does
not.

Id. at 17a.
The court of appeals also rejected applicant’s argument that

the legislative history shows that Congress did not intend for the
FDCPA to cover passive debt buyers that do not interact with consumers.

The court of appeals reasoned that, even assuming the

FDCPA was meant to regulate only abusive interactions with consumers, that purpose is served by treating applicant as a debt
collector because it has “every incentive to hire the most effective repo man” and, unlike a creditor, no incentive to “cultivate
good will” with consumers.

App., infra, 18a.

Having concluded that applicant was a debt collector, the
court of appeals made two observations about the ultimate question
of liability.

First, the court of appeals noted that vicarious

liability may be established even when a principal did not exercise
actual control over an agent.

Second, disagreeing with the dis-

trict court, the court of appeals suggested that a “debt collector”
can be vicariously liable for its agent’s actions even if the agent
is not itself a “debt collector” under the FDCPA.

App., infra,

20a.
4.

Counsel for applicant respectfully requests a 60-day ex-

tension of time, to and including July 22, 2019, within which to
file a petition for a writ of certiorari.

The court of appeals’

decision in this case presents complex issues concerning the proper
interpretation of the FDCPA.

The undersigned counsel did not

represent applicant below and needs additional time to review the
record and opinions below.

In addition, the undersigned counsel

7
is currently preparing petitions for writs of certiorari in several
other cases.

Additional time is therefore needed to prepare and

print the petition in this case.
Respectfully submitted.
KANNON K. SHANMUGAM
Counsel of Record
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
May 1, 2019

